NOTE: This order is nonprecedential.

Unttelr States Court of Appeals:
for tljr Jfeberai Circuit
AMY R. GURVEY,
Plaintiff-Appellant
v.
COWAN, LIEBOWITZ AND LATMAN, P.C., CLEAR
CHANNEL COMMUNICATIONS, INC., LIVE
NATION, INC., INSTANT LIVE CONCERTS, LLC
NEXTICKETING, INC., WILLIAM BORCHARD,
MIDGE HYMAN, BAILA CELEDONIA,
CHRISTOPHER JENSEN, DALE HEAD, STEVE
SIMON, SUSAN SCHICK,
Defendants-Appellees
DOES, 1-X INCLUSIVE, MICHAEL GORDON,
Defendants
2020-1620
Appeal from the United States District Court for the
Southern District of New York in No. l:06-cv-01202-LGSHBP, Judge Lorna G. Schofield.
ON PETITION FOR REHEARING EN BANC

2

GURVEY v. COWAN, LIEBOWITZ AND LATMAN

Before PROST, Chief Judge, NEWMAN, LOURIE, Dyk,
Moore, O’Malley, Reyna, Wallach, Taranto, Chen,
HUGHES, and Stoll, Circuit Judges.
Per Curiam.
ORDER
Appellant Amy R. Gurvey filed a petition for rehearing
en banc. The petition was first referred as a petition for
rehearing to the panel that heard the appeal, and thereaf­
ter the petition for rehearing en banc was referred to the
circuit judges who'are lnTeg'ulariJctive-"service.
' Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.

For the Court
September 2. 2020
Date

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Case: 20-1620

Document: 35

Page: 1

Filed: 06/23/2020

NOTE: This order is nonprecedential.

Qhuteti States Court of Appeals
for tfie jfeberal Circuit
AMY R. GURVEY,
Plaintiff-Appellant
v.
COWAN LIEBOWITZ AND LATMAN, P.C., CLEAR
CHANNEL COMMUNICATIONS, INC., LIVE
NATION, INC., INSTANT LIVE CONCERTS, LLC,
NEXTICKETING, INC., WILLIAM BORCHARD,
MIDGE HYMAN, BAILA CELEDONIA,
CHRISTOPHER JENSEN, DALE HEAD, STEVE
SIMON, SUSAN SCHICK,
Defendants-Appellees
DOES, 1-X Inclusive, MICHAEL GORDON,
Defendants
2020-1620
Appeal from the United States District Court for the
Southern District of New York in No. l:06-cv-01202-LGSHBP, Judge Lorna G. Schofield.
ON MOTION

Per Curiam.

Case: 20-1620

2

Document: 35

Page: 2

Filed: 06/23/2020

GURVEY v. COWAN LIEBOWITZ AND LATMAN

ORDER
Amy R. Gurvey petitions for a writ of mandamus and
moves for various relief, including a stay of this appeal
pending a decision on her mandamus petition. Responding
to this court’s show cause order, Cowan Liebowitz and Latman, P.C. (“CLL”), William Borchard, Midge Hyman, Baila
Celedonia, and Christopher Jensen (collectively, “the CLL
attorneys”) urge dismissal of the appeal. Ms. Gurvey also
responds to the show cause order and replies to the CLL
attorneys’ response to the same order.
Ms. Gurvey sued the CLL attorneys, Live Nation Inc.,
and other defendants in the United States District Court
for the Southern District of New York. Her operative com­
plaint asserted, inter alia, that the defendants misappro­
priated trade secrets contained in two provisional patent
applications that CLL filed on her behalf and that CLL had
committed legal malpractice. After the district court dis­
missed all of the claims, she appealed to the United States
Court of Appeals for the Second Circuit.
The Second Circuit concluded that it rather than the
Federal Circuit had jurisdiction to decide the matter be­
cause it was “not from a final decision of a district court in
an action arising under ‘any Act of Congress relating to pa­
tents.’” Gurvey v. Cowan, Liebowitz & Latman, P.C., No.
17-2760, slip op. at 2 (2d Cir. May 29, 2018), ECF No. 183
(quoting 28 U.S.C. § 1295(a)(1)). The Second Circuit ulti­
mately affirmed the judgment in December 2018.
On February 6, 2020, Ms. Gurvey moved the district
court to vacate an order it had previously entered in 2009
dismissing Ms. Gurvey’s claims as to Live Nation. The dis­
trict court denied that motion as untimely. Ms. Gurvey
moved for reconsideration, which the district court also de­
nied. Ms. Gurvey then filed this notice of appeal, seeking
review of those orders by the Federal Circuit.

Case: 20-1620

Document: 35

Page: 3

Filed: 06/23/2020

GURVEY v. COWAN LIEBOWITZ AND LATMAN

The Second Circuit has already held that it has juris­
diction over this case. Under the doctrine of the law of the
case, we must follow that determination unless it is shown
to be clearly wrong. Christianson v. Colt Indus. Operating
Corp., 486 U.S. 800, 817 (1988). Ms. Gurvey has not shown
that the Second Circuit was wrong, let alone clearly so.
The problem for Ms. Gurvey in seeking to establish this
court’s jurisdiction is that she never amended the com­
plaint to assert infringement of an issued patent that could
give rise to a non-frivolous claim arising under the patent
laws. See Gayler v. Wilder, 51 U.S. 477, 493 (1850); Abbey
v. Mercedes Benz of N. Am., Inc., 138 F. App’x 304, 307
(Fed. Cir. 2005) (“A patent application cannot be in­
fringed.”); see also Jang v. Boston Sci. Corp., 767 F.3d 1334,
1338 (Fed. Cir. 2014) (explaining that this court’s jurisdic­
tion “is predicated on the cause of action and the basis of
the facts as they existed at the time the complaint. . . was
filed”).
Ms. Gurvey suggests that she had an absolute right to
amend her complaint to include infringement once her pa­
tents issued and should be allowed to do so. But the district
court denied Ms. Gurvey leave to amend her complaint af­
ter the patents issued, and that ruling survived the Second
Circuit’s abuse of discretion review. See Gurvey v. Cowan,
Liebowitz & Latman, P.C., 757 F. App’x 62, 65 (2d Cir.
2019), cert, denied, 140 S. Ct. 161 (2019). We lack jurisdic­
tion to review the Second Circuit’s decision or to grant
leave to amend her complaint.
We likewise lack jurisdiction to grant Ms. Gurvey’s re­
quest for mandamus. “The All Writs Act is not an inde­
pendent basis of jurisdiction, and the petitioner must
initially show that the action sought to be corrected by
mandamus is within this court’s statutorily defined subject
matter jurisdiction.” Baker Perkins, Inc. v. Werner & Pfleiderer Corp., 710 F.2d 1561, 1565 (Fed. Cir. 1983) (citation
omitted). Because subject matter jurisdiction over an

I

3

Case: 20-1620

Document: 35

Page: 4

Filed: 06/23/2020

GURVEY V. COWAN LIEBOWITZ AND LATMAN

4

appeal in this case lies exclusively in the Second Circuit,
any request for mandamus relief also lies exclusively with
that court.
While the CLL attorneys argue that we should dismiss,
we deem it the better course to transfer the matter and all
filings to the Second Circuit pursuant to 28 U.S.C. § 1631.
Accordingly,
It Is Ordered That:
(1) The court accepts Ms. Gurvey’s reply (ECF No. 29)
for filing.
(2) The appeal and all filings are transferred to the
United States Court of Appeals for the Second Circuit pur­
suant to 28 U.S.C. § 1631.
For the Court
June 23. 2020
Date
s32

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Case l:06-cv-01202-LGS-HBP Document 425 Filed 01/29/19 Page 1 of 1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

-X

USDCSDNY
DOCUMENT
ELECTRONICALLY FILED
DOC #:_________________
DATE FILED: 1/29/2019

AMY R. GURVEY,
Plaintiff,
06 Civ. 1202 (LGS)
-againstORDER
COWAN, LIEBOWITZ & LATMAN, P.C., et al.,
Defendants.

-X
LORNA G. SCHOFIELD, District Judge:
WHEREAS, by Opinion and Order dated July 6, 2017 (the “Order”), Defendants’ motion
for summary judgment on the claims of attorney malpractice and breach of fiduciary duty was
granted based on violations of statutes of limitations and insufficiency of the evidence, and
Plaintiffs cross-motion for leave to amend was denied as untimely and futile (Dkt. No. 408);
WHEREAS, on July 7, 2017, the Clerk of Court entered judgment (Dkt. No. 409);
WHEREAS, on September 1, 2017, a notice of appeal was filed (Dkt. No. 419);
WHEREAS, by letter dated November 23, 2018, Plaintiff moved for an indicative ruling
under Federal Rules of Civil Procedure 60 and 62.1 (Dkt. No. 423);
WHEREAS, on January 25, 2019, the Second Circuit issued its mandate affirming the
Opinion and Order dated July 6, 2017 (Dkt. No. 424); it is hereby
ORDERED that the motion for an indicative ruling is DENIED as moot.
The Clerk of Court is directed to mail a copy of this Order to pro se Plaintiff.
Dated: January 29, 2019
New York, New York

LORI<A G. SCHOFIEL1
United States District Judge

Case l:06-cv-01202-LGS-HBP Document 409 Filed 07/07/17 Page 1 of 1 . ___

PUSDC SONY
DOCUMENT
ELECTRONICALLY FILED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

DOC ________________ _
DATE FILED: 1 H\p,_

X
AMY R.GURVEY,
06 CIVIL 1202 (LGS)

Plaintiff,

JUDGMENT

-againstCOWAN, LIEBOW1TZ & LATMAN, P.C.,
et a!
Defendants.

X
Defendants having moved for summary judgment on the remaining claims of attorney
malpractice and breach of fiduciary duty; and Plaintiff having filed a cross-motion for summary
judgment as to a number of claims that are not pending in this case, and the matter having come
before the Honorable Lorna G. Schofield, United States District Judge, and the Court, on July 6,
2017, having rendered its Opinion and Order granting Defendants’ motion for summary
judgment, and denying Plaintiffs cross-motions; and any of Plaintiff s claims or arguments not
addressed have been considered and rejected; and directing the Clerk of Court to close this case,
it is,
ORDERED, ADJUDGED AND DECREED: That for the reasons stated in the
Court's Opinion and Order dated July 6, 2017, Defendants’ motion for summary judgment is
granted and Plaintiffs cross-motions are denied. Any of Plaintiffs claims or arguments not
addressed have been considered and rejected; accordingly, the case is closed.
Dated: New York, New York
July 7, 2017
RUBY J. KRAJICK
Clerk of Court
BY:
Deputy Clerk ^

Case l:06-cv-01202-LGS-HBP Document 410 Filed 07/07/17 Page 1 of 1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

-X

USDCSDNY
DOCUMENT
ELECTRONICALLY FILED
DOC #:_________________
DATE FILED: 07/07/2017

AMY R. GURVEY,
Plaintiff,
06 Civ. 1202 (LGS)
-againstOPINION AND ORDER
COWAN, LIEBOWITZ & LATMAN, P.C., et al.,
Defendants.

X
LORNA G. SCHOFIELD, District Judge:
It is hereby ORDERED that pro se Plaintiff Amy R. Gurvey shall not call or contact
Chambers directly, but instead shall communicate with the Court solely through the Pro Se
Office.
Plaintiff is reminded that, per the Order dated September 17, 2015, “Plaintiff will receive
the balance of the funds she deposited [with the Court], if any, after this case is closed and all
appeals have been exhausted.”
If Plaintiff requires further assistance, she may contact the Legal Assistance Clinic, which
is a free legal clinic staffed by attorneys and paralegals to assist those who are representing
themselves in civil lawsuits in the Southern District of New York. Additional information about
the Legal Assistance Clinic is available on the Southern District of New York’s website:
http://www.nysd.uscourts.gov/prose7clinic.
New York, New York
July 7,2017

Lori^a G. Schofieli
United States District Judge

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 1 of 17

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
X

USDCSDNY
DOCUMENT
ELECTRONICALLY FILED
DOC #:_____ .__________
DATE FILED: 07/06/2017

AMY R. GURVEY,
Plaintiff,
06 Civ. 1202 (LGS)
-againstOPINION AND ORDER
COWAN, LIEBOWITZ & LATMAN, P.C., et
al.,
Defendants.
■X

LORNA G. SCHOFIELD, District Judge:
Plaintiff Amy R. Gurvey commenced this action against Defendants William Borchard,
Midge Hyman, Baila Celedonia, Christopher Jensen, all attorneys at the firm of Cowan
Liebowitz & Latman, P.C. (“Cowan” or “the Firm”), which is also a defendant (together,
“Defendants”) and others. Defendants move for summary judgment on the remaining claims of
attorney malpractice and breach of fiduciary duty. Plaintiff cross-moves for summary judgment
as to a number of claims that are not pending in this case. Insofar as Plaintiffs claims have not
been dismissed previously, Plaintiffs cross-motion is construed as a motion to amend the
pleadings and is denied as both untimely and futile. Terry v. Inc. Vill. of Patchogue, 826 F.3d
631, 633 (2d Cir. 2016). For the reasons below, Defendants’ motion is granted.

I.

BACKGROUND
Unless noted, the facts below are undisputed and drawn from the parties’ Rule 56.1

Statements and other submissions on this motion, and are construed in Plaintiffs favor. See
Wright v. N. Y. State Dep’t of Corr., 831 F.3d 64, 71-72 (2d Cir. 2016). Given the long history of
this litigation, only the facts relevant to the adjudication of this motion are discussed.

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 2 of 17

On December 6, 2001, Cowan sent Plaintiff a “letter of intent” confirming its offer of
employment to Plaintiff, subject to finalizing the terms of the employment agreement. Around
this time, Plaintiff was working on a venture that she called “ConcertMaster and Electronic
Ticketing” — a “ticketing and e-ticketing method[] on mobile devices ... to enable distribution
of live recordings and event merchandise.” Plaintiff had described her venture “in general”
during her interview with the Firm. She later, in a May 2002 email to a third party unrelated to
Cowan, described her business idea: “The patent will allow ticket buyers to get a SmartCard or
small CD in lieu of a cardboard ticket if they pay a premium over the ticket price, let’s say $10.
Within a certain number of hours after [s/c] performance, the premium payer can will then [,s7c]
be able to insert the disk into a computer and download an encryped [.s7c] DVD of the concert
attended . . . .”
The Third Amended Complaint (the “Complaint”) asserts that from January 2002
Plaintiff was Cowan’s client, and Plaintiff testified that she “may have assumed that Cowan were
[her] lawyers” at that time. On February 1, 2002, Plaintiff joined Cowan as “of counsel,” under
a one-year employment agreement, dated January 15, 2002. The only evidence of the parties’
relationship from early 2002 is the employment agreement, which acknowledges Plaintiffs
ownership of the e-ticketing venture, but makes no mention of any attorney-client relationship in
connection with that project or any other matter.
Plaintiff presented her venture at a Firm meeting shortly after she joined in early 2002, at
the request of Cowan attorney William Borchard. In her deposition, Plaintiff testified that
Borchard told her that the purpose of her presentation was to inform “of-counsels who were parttime” “of the nature of [her] inventions and [her] practice ... to find out if some of them could
send [her] billings to do for their other clients.” Plaintiff also testified that she provided

2

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 3 of 17

handouts at the meeting, and that she did not remember whether those handouts were marked
“confidential” or whether she informed the attendees that her invention was confidential. She
did not ask for the handouts to be returned to her.
In March or April 2002, Plaintiff claims to have attended a Firm event at which she met
Michael Gordon of the band Phish and “w[as] shocked to discover how much [he] knew of
plaintiffs confidential business plans and technology.” Plaintiff believed that Gordon’s thengirlfriend, Cowan associate Susan Schick, disclosed Plaintiffs confidential information, or that
“[Gordon] may have been at the [February] meeting.” Plaintiff testified that, at the time of the
Firm event where she met Gordon, “Cowan had not done any filing for [her],” and “Cowan had
not done anything yet.”
The Firm terminated Plaintiffs employment on or around May 7, 2002. Beginning on
May 10, 2002, while planning for Plaintiffs departure, the Firm agreed to help Plaintiff prepare
and file with the United States Patent and Trademark Office (“USPTO”) a provisional patent
application (“PPA”) for her electronic ticketing venture. In a May 10, 2002, email from Plaintiff
to Borchard and Cowan attorney Christopher Jensen, Plaintiff stated:
Coincidentally (and without any request on my part), Mark Montague came into
my office yesterday and said he would like to file the provisional patent for my
concert idea. Since my discussing this patent and the business model during my
first firm meeting, a few of the associates have asked me if they could work on it.
I have deferred answering them. Time has now become of the essence .... For
expediency purposes, I am willing to pay for Mark’s time and legal fees. ... If it
is better if all my projects and clients are handled separately, please so advise, and
I will retain outside counsel. I told Mark that I would love him to do the work but
under no circumstances could he do anything without getting your permission.
Later the same day, Jensen authorized Cowan attorney Mark Montague to file the PPA on
Plaintiffs behalf and said, “[w]e should just keep track of our time for now and then we will
figure out later with Amy how we are going to get paid.”

3

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 4 of 17

On May 22, 2002, after Plaintiffs employment was terminated but before she had
vacated her office at the Firm, Montague filed a PPA on Plaintiffs behalf, entitled “Premium
Performance Ticket.” On May 24, 2002, Cowan attorney Lewis Gable filed a second PPA that
was substantially similar to, but more expansive than, the first PPA and intended to supersede the
first PPA. Defendants assert that they did not perform any legal work for Plaintiff after Gable
filed the second PPA, and Plaintiff has not presented contrary evidence.
In June 2002 (after Plaintiff was fired, but still before she had vacated her office, which
occurred in September), Cowan attorney Midge Hyman told Plaintiff that “the firm would not
send [her] work under any circumstances” or “allow [her] to work on [her] patent or . . . use any
of the firm’s other patent attorneys to assist [her].” In October 2002, Plaintiff sent an email to
Borchard and Jensen requesting that her files be sent to her, and thereafter, that “all of [her] files
. . . be burned and destroyed” and a “Certificate of Destruction [be] signed by the firm.”
In December 2002, Plaintiff had a telephone conversation with Jensen in which, Jensen
asserts, Plaintiff threatened to sue the Firm. The next day, Plaintiff sent an email to Jensen and
Borchard, in which she sought payment for her services and threatened to “pursue vigorously”
the “misappropriation of any my [,s/c] trade secrets and patent (filed by the firm).” In response,
Jensen instructed Plaintiff not to email him again. According to Defendants, Plaintiffs “threat of
litigation” created a conflict of interest, which prompted them to withdraw formally as her
representative before the USPTO, which they did by filing a request for withdrawal on January
3, 2003. The request for withdrawal stated as the reason for the request that “[a] conflict of
interest has arisen between the applicant [Plaintiff] and the law firm [Defendants].” The record
includes a January 3, 2003, letter from Defendants to Plaintiff advising her, “Since a potential
conflict of interest has arisen between you and Cowan, Liebowitz & Latman, P.C., we are

4

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 5 of 17

ethically obligated to withdraw as legal counsel to you in the above-referenced patent matter.”
On February 13, 2003, the USPTO accepted the request, which Plaintiff alleges in the Complaint
that she learned of on February 16, 2003.
In April 2003, Plaintiff communicated with Schick and claimed not to know the source of
the Firm’s conflict of interest. Jensen, after learning about this communication replied, “As we
previously informed you, we can not [s/c] represent you in connection with your provisional
patent applications because of your threats of legal action against this firm.”
On May 5, 2003, the New York Times published an article that Plaintiff describes as
“announcing and introducing [Clear Channel Communications, Inc.’s (“Clear Channel”)] newest
venture,” and describing “Plaintiffs entire confidential business models for the onsite
distribution of live recordings at concerts.” The article reported that Clear Channel would begin
selling compact discs of live recordings of concerts at Clear Channel venues “within five minutes
of a show’s conclusion,” and that Clear Channel described the venture as “a continuation of the
trend among various bands and start-ups in recent years to sell authorized recordings that are
available on CD or as Internet downloads soon after the event.” The article quoted various
people in the music industry, including Phish’s manager, John Paluska. “Although [Phish’s]
experience is not a direct comparison,” he illustrated the potential growth of the instant disc
market by noting that Phish had “sold close to $ 1 million in concert-show downloads over the
Internet since opening the livephish.com site in late December.” He observed that “it would not
be easy for Clear Channel to move into the instant-CD sphere” because of “legal issues,” an
apparent reference to an earlier observation in the same article that instant discs could pose a
problem for established artists who have contracts with “major labels.” In and before 2002,
Clear Channel was Cowan’s client as to unrelated matters that did not concern live events.

5

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 6 of 17

According to the Complaint, Defendants and Clear Channel “joint[ly] misappropriate[ed] . . .
Plaintiffs trade secrets, confidential business models including those contained in Plaintiffs
PPA’s.”

On April 24, 2009, this Court dismissed the Complaint in its entirety. On February 10,
2012, the Second Circuit affirmed the dismissal, except “to the extent that it dismissed Gurvey’s
claims for attorney malpractice and breach of fiduciary duty.” Gurvey v. Cowan, Liebowitz &
Latman, P.C., 462 F. App’x 26, 30 (2d Cir. 2012) (summary order). The Second Circuit held
that Plaintiff had pleaded a “plausible claim by alleging that [Defendants] used the information
given to them as part of a confidential attorney-client relationship to their own advantage by
disclosing it to other clients who then profited therefrom to Gurvey’s detriment.” Id. The
Second Circuit noted that “[t]he plausibility of this argument is bolstered by Gurvey’s allegation
that Cowan withdrew from representing Gurvey before the United States Patent and Trademark
Office due to what Cowan allegedly termed a ‘conflict of interest.’” Id. at n.8.
II.

LEGAL STANDARD
Summary judgment should be granted where “there is no genuine issue as to any material

fact and . . . the moving party is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a);
accord Proctor v. LeClaire, 846 F.3d 597, 607 (2d Cir. 2017). There is a genuine dispute “when
the evidence is such that, if the party against whom summary judgment is sought is given the
benefit of all permissible inferences and all credibility assessments, a rational factfinder could
resolve all material factual issues in favor of that party,” and “no rational factfinder could find in
favor of the nonmovant.” SEC v. Frohling, 851 F.3d 132, 136-37 (2d Cir. 2016) (citing
Anderson v. Liberty Lobby, Inc., All U.S. 242, 248 (1986)) (affirming summary judgment and
the district court’s finding that “no rational factfinder could fail to find that Frohling knew” that

6

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 7 of 17

opinion letters he issued were false, despite his deposition testimony to the contrary, in light of
his admission and documentary evidence illustrating his knowledge). This standard applies
“whether summary judgment is granted on the merits or on an affirmative defense such as the
statute of limitations.” Giordano v. Market Am., Inc., 599 F.3d 87, 93 (2d Cir. 2010).
The movant bears the initial burden of demonstrating the absence of a genuine dispute as
to any material fact. Fed. R. Civ. P. 56(c)(1); Celotex Corp. v. Catrett, All U.S. 317, 322-23
(1986). “[T]he movant may satisfy this burden by pointing to an absence of evidence to support
an essential element of the nonmoving party’s claim.” Gummo v. Vill. of Depew, 75 F.3d 98
107 (2d Cir. 1996) (citing Celotex Corp., All U.S. at 322-23). The burden then shifts to the
nonmoving party, who must present evidence sufficient to support a jury verdict in its favor.
Anderson, All U.S. at 249. The court must construe the evidence and draw all reasonable
inferences in favor of the non-moving party. See Wright, 831 F.3d at 71-72.
The nonmoving party may not create a triable issue of fact by contradicting factual
allegations in the Complaint, Rojas v. Roman Catholic Diocese of Rochester, 660 F.3d 98, 106
(2d Cir. 2011), or submitting an affidavit that disputes her own prior sworn testimony, Moll v.
Telesector Res. Grp., Inc., 760 F.3d 198, 205 (2d Cir. 2014). “The purpose of th[is ‘sham issue
of fact’] doctrine is clear: ‘[i]f a party who has been examined at length on deposition could
raise an issue of fact simply by submitting an affidavit contradicting his own prior testimony, this
would greatly diminish the utility of summary judgment as a procedure for screening out sham
issues of fact.” Id. \ accord Jeffreys v. City ofNew York, 426 F.3d 549, 554 (2d Cir. 2005)
(explaining that “where the plaintiff relies almost exclusively on his own testimony, much of
which is contradictory and incomplete, it will be impossible for a district court to determine . . .

7

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 8 of 17

whether there are any genuine issues of material fact, without making some assessment of the
plaintiffs account.”).
New York law governs the substantive issues arising from the surviving claims of
attorney malpractice and breach of fiduciary duty. “In a diversity action based on attorney
malpractice, state substantive law .. . applies.” Nordwind v. Rowland, 584 F.3d 420, 429 (2d
Cir. 2009); accord Henkel v. Wagner, No. 12 Civ. 4098, 2016 WL 1271062, at *5 (S.D.N.Y.
Mar. 29, 2016). “The parties’ briefs assume that [New York] state law governs this case, and
‘such implied consent is . . . sufficient to establish the applicable choice of law.’” Trikona
Advisers Ltd. v. Chugh, 846 F.3d 22, 31 (2d Cir. 2017) (quoting Arch Ins. Co. v. Precision Stone,
Inc., 584 F.3d 33, 39 (2d Cir. 2009)).
III.

DISCUSSION
Defendants move for summary judgment as to Plaintiffs claims for attorney malpractice

and breach of fiduciary duty. The motion is granted on the independent grounds that both claims
are time barred, and that Plaintiff has proffered insufficient evidence from which a reasonable
jury could find in her favor on either claim.
A. Statutes of Limitations
Plaintiffs claims are dismissed as untimely because they were not filed within the
limitations period applicable to each claim — three years, plus 228 days during which time the
statutes of limitations were tolled due to Cowan’s representation of Plaintiff in connection with
her patent application. The Complaint was filed on February 15, 2006. To be timely, any claim
must have accrued no earlier than three years plus 228 days before that date, or July 2, 2002.
The evidence in the record, construed in Plaintiffs favor as required on this motion, shows that

8

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 9 of 17

any improper disclosure of Plaintiff s information by Cowan occurred no later than April 2002.
Accordingly, the claims are time barred.
1. Relevant Statutory Period
The surviving claims allege attorney malpractice and breach of fiduciary duty. Each is
constrained by a three-year statute of limitations period. Under New York law, an action for
attorney malpractice must be filed within three years from the date of accrual. N.Y. C.P.L.R.
§ 214(6). “For fiduciary duty claims, the choice of the applicable limitations period depends on
the substantive remedy that the plaintiff seeks.” Rohe v. Bertine, Hufnagel, Headley, Zeltner,
Drummon & Dohn, LLP, 160 F. Supp. 3d 542, 548 (S.D.N.Y. 2016) (quoting IDT Corp. v.
Morgan Stanley Dean Witter & Co., 907 N.E.2d 268, 272 (N.Y. 2009)). Where, as here,
Plaintiff seeks money damages, “a three-year statute of limitations similarly applies.” Id.
Plaintiff argues that a six-year statute of limitations applies to her breach of fiduciary
duty claim because “fraud, concealment, sabotage, USPTO false claims as are involved here
have a six-year statute of limitations.” Plaintiff is correct insofar as “where an allegation of
fraud is essential to a breach of fiduciary [duty] claim, courts have applied a six-year statute of
limitations under CPLR 213(8).” Levy v. Young Adult Inst., Inc., No. 13 Civ. 2861, 2016 WL
6092705, at *20 (S.D.N.Y. Oct. 18, 2016) (quoting IDT Corp., 907 N.E.2d at 272). The six-year
statute of limitations is inapplicable here, however, because the Complaint’s allegations of
breach of fiduciary duty are not “inextricably bound to a fraud claim.” Id. The essence of a
fraud claim is a knowing misrepresentation of material fact. See id. (citing Kaufman v. Cohen,
760 N.Y.S.2d 157, 164-65 (1st Dep’t 2003)). After the Second Circuit’s remand Order, the
surviving claims are based on allegations that Defendants “used [Plaintiffs] information given to
them as part of a confidential attorney-client relationship to their own advantage by disclosing it

9

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 10 of 17

to other clients.” Gurvey, 462 F. App’x at 30. As Plaintiffs fiduciary duty claim is based on the
alleged misappropriation and wrongful disclosure of Plaintiff s information and not fraud, the
three-year — not the six-year — statute of limitations applies.
2. Tolling of the Statute of Limitations
“‘[T]he rule of continuous representation tolls the running of the [s]tatute of [limitations
on [a] malpractice claim until the ongoing representation is completed.’” Grace v. Law, 21
N.E.3d 995, 999 (N.Y. 2014) (quoting Shumsky v. Eisenstein, 750 N.E.2d 67, 70 (N.Y. 2001));
see also Zarefv. Berk & Michaels, P.C., 595 N.Y.S.2d 772, 774 (1st Dep’t 1993) (noting that “a
client cannot reasonably be expected to assess the quality of the professional service while it is
still in progress” and finding the continuous representation doctrine applies where “the
continuous representation . .. [is] in connection with the particular transaction which is the
subject of the action”). Generally, tolling under the continuous representation doctrine “end[s]
once the client is informed or otherwise put on notice of the attorney’s withdrawal from
representation.” Champlin v. Pellegrin, 974 N.Y.S.2d 379, 380 (1st Dep’t 2013) (internal
quotation marks omitted and alterations in original). There must be “clear indicia of an ongoing,
continuous, developing, and dependent relationship between [plaintiff and defendant] ... or a
mutual understanding of the need for further representation on the specific subject matter[s]
underlying the malpractice claim.” Id. (internal citation and quotation marks omitted and
alterations in original). The parties must “explicitly contemplate^ further representation” for
tolling to apply. Williamson ex rel. Upper Convertibles, L.P. v. PricewaterhouseCoopers LLP,
872 N.E.2d 842, 847 (N.Y. 2007); accord Carvel v. Ross, No. 09 Civ. 0722, 2011 WL 856283, at
*13 (S.D.N.Y. Feb. 16, 2011).

10

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 11 of 17

The period for which the statute of limitations period is tolled is, at most, the duration of
the attorney-client relationship. Based on the evidence, no reasonable jury could find that
Cowan represented Plaintiff before May 10, 2002, or after December 24, 2002 (and likely would
find that the engagement ended earlier).
In her May 10, 2002, email Plaintiff asked Jensen for his permission to have the Firm
represent her before the USPTO and file her PPA. She offered to pay for attorney Montague’s
time and legal fees, but also offered to retain outside counsel if Jensen preferred. On the same
day, Jensen authorized Montague to make the USPTO filing and instructed him to keep track of
his time. Although Plaintiff says that she “may have assumed that Cowan were [her] lawyers” in
early 2002, the evidence in the record shows that Plaintiff became an employee of Cowan at that
time, not a client. Based on the undisputed evidence, a reasonable jury could find only that
Cowan’s representation of Plaintiff began on or after May 10, 2002.
Defendants expressly repudiated the attorney-client relationship in June 2002, when
Hyman notified Plaintiff that Defendants would no longer assist with her patent filings, and
thereafter took no further action on her behalf. Likewise, Plaintiff repudiated the attorney-client
relationship, first, on October 12, 2002, when she demanded that Defendants return and destroy
all of her files in their possession, and again, on December 24, 2002, when she threatened in
writing to sue Defendants. The evidence shows that by December 24, 2002, Plaintiff and
Defendants both had unequivocally disavowed the attorney-client relationship.
Plaintiffs unsupported and contradictory statements, including that “Cowan never
attempted to withdraw from Plaintiffs representation until [as late as] February 20, 2007,” are
insufficient to create a triable issue. First, the Complaint alleges that Cowan represented Plaintiff
through “at least February 2003 and May, 2003” — not 2007. Plaintiff may not directly

11

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 12 of 17

contradict the pleadings to survive a motion for summary judgment, and the Court is entitled to
disregard such statements. See Rojas, 660 F.3d at 106. Second, Plaintiff has provided no
evidence that Defendants represented her after December 2002 (or even June 2002), or to
controvert Defendants’ evidence that (1) Hyman expressly terminated the attorney-client
relationship in June 2002; (2) Plaintiff requested that the Firm send her all of her files and then
destroy any copies in October 2002; and (3) Plaintiff threatened to sue Defendants in December
2002.
Plaintiffs own submissions on this motion contradict her argument that Defendants
represented her after December 2002. For example, Plaintiff argues that “[Djefendant Jensen
admitted] that Montague continued to perform patent searches until May 1. 2003.” However,
Plaintiffs corresponding exhibit — a letter from Jensen to Plaintiff dated May 1, 2003 — states
that Montague performed a computer database search at some unspecified time in the past; that
the search is inconclusive because of information that was unavailable at the time the search was
conducted; that “we formally withdrew as your counsel in the Patent Office in January, 2003 and
have not represented you in connection with this matter since that date”; and that it is
“imperative that [Plaintiff] engage new patent counsel” to meet the looming May 22 and 24
USPTO deadlines. The implication is that the search was conducted before January 2003 and
would need to be updated by Plaintiffs new counsel, who should be hired immediately.
Nothing in the record suggests that Cowan acted on Plaintiffs behalf after June 2002.
No reasonable fact finder could conclude that the parties contemplated or had a mutual
understanding as to Defendants’ continuing representation respecting Plaintiffs patent
application after December 24, 2002. See, e.g., De Carlo v. Ratner, 204 F. Supp. 2d 630, 638
(S.D.N.Y. 2002) (finding plaintiffs legal malpractice claim time barred because the continuing

12

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 13 of 17

representation doctrine was inapplicable and where “there [was] a breakdown” in the attorneyclient relationship); Tantleff v. Kestenbaum & Mark, 15 N.Y.S.3d 840, 843-44 (2d Dep’t 2015)
(affirming grant of summary judgment on attorney malpractice claim on the ground that the
claim was time barred where undisputed facts showed that the representation and tolling had
ended). Construing the evidence in Plaintiffs favor, and therefore assuming that Defendants
represented Plaintiff no earlier than May 10, 2002, until no later than December 24, 2002, the
statutes of limitations were tolled for 228 days, and any claim must have accrued no earlier than
July 2, 2002.
3. Accrual of Plaintiff s Claims
Causes of action for both attorney malpractice and breach of fiduciary duty accrue on the
date of the alleged breach. Rohe, 160 F. Supp. 3d at 549. “What is important is when the
malpractice was committed, not when the client discovered it.” McCoy v. Feinman, 785 N.E.2d
714,718 (N.Y. 2002).
The surviving claims in this action are based on the allegation that Defendants disclosed
Plaintiffs confidential information to other clients. See Gurvey, 462 F. App’x at 30. The
Complaint alleges that Plaintiff suspected Cowan associate Susan Schick of disclosing Plaintiffs
confidential information to Phish band member Michael Gordon before or around February
2002. Plaintiff, at her deposition, testified that Gordon confirmed in April 2002 that Schick had
disclosed the information. Construing these facts in the light most favorable to Plaintiff, the
latest date on which a reasonable jury could find that Plaintiffs claims accrued based on the
alleged Phish disclosure was in April 2002.
The Complaint also alleges that Cowan and Clear Channel jointly misappropriated
Plaintiffs information. This allegation appears to be based solely on the May 2003 New York

13

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 14 of 17

Times article which reported that Clear Channel was beginning an “instant CD” venture, similar
to but not the same as Plaintiffs e-ticketing venture, and described as “a continuation of the
trend among various bands and start-ups in recent years to sell authorized recordings that are
available on CD or as Internet downloads soon after the event.” The article is insufficient to give
rise to an inference of improper disclosure by the Firm to Clear Channel. As there is no evidence
of any improper disclosure of Plaintiff s information to Clear Channel or any date on which it
allegedly occurred, there is no date when Plaintiffs claims based on this alleged disclosure
accrued.
Based on an April 2002 accrual date, Plaintiffs claims are barred by the three-year
statutes of limitations. Plaintiff filed the Complaint on February 15, 2006. To be timely absent
tolling, Plaintiffs claims must have accrued on or after February 15, 2003. Tolling the statutes
of limitations for 228 days, the duration of Cowan’s representation of Plaintiff, any timely claim
must have accrued no earlier than 228 days before February 15, 2003, or July 2, 2002.
Plaintiffs claims, which accrued no later than April 2002, are untimely. i
B. Sufficiency of the Evidence
As noted, the surviving claims in this action are based on the allegation that Defendants
disclosed Plaintiffs confidential information to other clients. See Gurvey, 462 F. App’x at 30.
These claims fail as a matter of law also because Plaintiff has not proffered sufficient evidence
from which a reasonable jury could find liability or damages.

i

Even if the attorney-client relationship continued until January 3, 2003 (the date on which
Defendants withdrew as Plaintiffs counsel before the USPTO) or until February 16, 2003 (the
date on which Plaintiff claims to have learned that Defendants withdrew as her counsel before
the USPTO), Plaintiffs claims still are untimely. If the attorney-client relationship continued
until January 3, 2003 (resulting in a tolling period of 238 days), any timely claim must have
accrued no earlier than June 22, 2002. If the relationship continued until February 16, 2003
(resulting in a tolling period of 282 days) any timely claim must have accrued by May 9, 2002.
14

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 15 of 17

First, the undisputed evidence shows that Plaintiffs information was not confidential.
She shared it at a Firm meeting where she did not take any precautions to prevent its
dissemination. The Complaint also states that she shared it with various third parties, and the
evidence includes a May 2002 email describing her proposal to a third party. Although the
claims are premised on the confidentiality of the information in the PPAs, Plaintiff inexplicably
now contends that the PPAs did not include any confidential information or information that
would be “of interest to [Defendants’] clients.” Lastly, as discussed in detail above, Cowan did
not leam Plaintiffs confidential information during the course of a confidential relationship, as
the Firm did not yet represent Plaintiff when she initially disclosed it at her employment
interview in December 2001, and again at the Firm meeting in February 2002.
Second, Plaintiff has not adduced evidence to show that she entrusted information with
Defendants during the course of any attorney-client or other fiduciary relationship, or that
Defendants disclosed her information during the course of such a relationship. Both the
disclosure by Plaintiff to the Firm, and the Firm’s alleged disclosure to Pfish, occurred prior to
the commencement of the representation. “Failure to establish an attorney-client relationship
prevents a plaintiff from proceeding on a legal malpractice claim.” Case v. Clivilles, 216 F.
Supp. 3d 367, 379 (S.D.N.Y. 2016).
Third, as discussed above, Plaintiff has failed to adduce any evidence that the Firm
disclosed her information to Clear Channel. Plaintiff repeatedly testified at her deposition that
she does not have specific evidence that any of the individual Defendants actually disclosed her
confidential information.
Fourth, Plaintiff has not presented evidence from which a reasonable jury could conclude
that she suffered damages that were proximately caused by Defendants’ alleged breach. In

15

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 16 of 17

remanding the claims at issue, the Second Circuit cited Ulico Casualty Co. v Wilson, Elser,
Moskowitz, Edelman & Dicker, 865 N.Y.S.2d 14, 22 (1st Dep’t 2008), which held that a plaintiff
must establish “but for causation” to recover on either an attorney malpractice claim or a breach
of fiduciary duty claim against an attorney; “the plaintiff must establish the ‘but for’ element of
malpractice” — i.e., that Plaintiff would not have sustained a loss but for the defendant attorney’s
breach. See also Reubens v. Mason, 387 F.3d 183, 189 (2d Cir. 2004). “[Mjere speculation of a
loss resulting from an attorney’s alleged omissions ... is insufficient to sustain a claim for legal
malpractice.” Gallet, Dreyer & Berkey, LLP v. Basile, 35 N.Y.S.3d 56, 58 (1st Dep’t 2016)
(quoting Markard v. Bloom, 770 N.Y.S.2d 869, 869 (1st Dep’t 2004) (alterations in original).
“[S]ummary judgment dismissing the legal malpractice claim has been granted where the
asserted damages are vague, unclear, or speculative.” Id. at 59.
There is no evidence in the record, expert or otherwise, that Plaintiffs venture would
have been commercially successful but for any alleged conduct of Defendants, or that she would
not have suffered any other actual damages but for the alleged improper disclosures. See id. at
58-59 (affirming summary judgment on malpractice claim because damages were purely
speculative); see also Stone-well Corp. v. Conestoga Title Ins. Co., 678 F. Supp. 2d 203, 212
(S.D.N.Y. 2010) (noting that “[ejxpert testimony is sometimes required to establish . . . whether
the negligence proximately caused any injury to the plaintiff-client”); O ’Shea v. Brennan, No. 02
Civ. 3396, 2004 WL 583766, at *14 (S.D.N.Y. Mar. 23, 2004) (granting summary judgment as
to legal malpractice claim because “without expert testimony, it is unlikely that a jury could
conclude whether, but for O’Shea’s failure to file timely, [plaintiff] would have been successful
in a defamation action in New York, had such an action been commenced”).

16

Case l:06-cv-01202-LGS-HBP Document 408 Filed 07/06/17 Page 17 of 17

Plaintiff erroneously argues that “in the event an attorney breaches his duty of loyalty, the
client, as a matter of law, is not required to meet the higher standard of pleading and proving
causation; but rather, must demonstrate only that the breach or conflict of interest was a
substantial factor in bringing about its loss.” The cases on which Plaintiff relies are inapposite or
do not stand for the propositions for which she cites them. See, e.g., Ulico Cas. Co., 865
N.Y.S.2d at 22 (“[T]he plaintiff must establish the ‘but for’ element of malpractice”); Schneider
v. Wien & Malkin LLP, No. 601363/02, 2004 WL 2495843, at *17 n.10 (N.Y. Sup. Ct. Nov. 1,
2004) (“The more rigorous ‘but for’ standard of causation will be applied where a breach of
fiduciary claim against an attorney is premised on allegations of legal malpractice”); Estate ofRe
v. Kornstein Veisz & Wexler, 958 F. Supp. 907, 924 (S.D.N.Y. 1997) (“[T]o recover for legal
malpractice, it must be shown not only that the attorney was negligent, but also that ‘but for’ the
attorney’s negligence the plaintiff would have prevailed in the underlying action.”).
Because the evidence is insufficient to create any genuine issue of material fact as to
Defendants’ liability or Plaintiffs alleged damages, summary judgment is granted on this basis
in addition to the expiration of the statutes of limitations.
IV.

CONCLUSION
For the foregoing reasons, Defendants’ motion for summary judgment is GRANTED,

and Plaintiffs cross-motions are DENIED. Any of Plaintiff s claims or arguments not addressed
herein have been considered and rejected. The Clerk of Court is directed to close the motion at
Docket No. 375 and close this case.
Dated: July 6, 2017
New York, New York
Lori<a G Schofield
United States District Judge
17

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 1 of 14

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
X

USDCSDNY
DOCUMENT
ELECTRONICALLY FILED
DOC #:________________
DATE FILED: 9/17/15

AMY R. GURVEY,
Plaintiff,
06 Civ. 1202 (LGS) (HBP)
-againstOPINION AND ORDER
COWAN, LEIBOWITZ & LATMAN, P.C., et al.,
Defendants.
X
LORNA G. SCHOFIELD, District Judge:
Magistrate Judge Henry B. Pitman, to whom this matter has been referred for supervision
of pretrial proceedings, issued a Report and Recommendation (the “Report”), dated July 24,
2015, recommending that: (1) Defendants Cowan Liebowitz & Latman, P.C., William Borchard,
Midge Hyman, Baila Celedonia and J. Christopher Jensen’s (collectively, “Defendants”) motions
for sanctions against Plaintiff Amy Gurvey under Federal Rule of Civil Procedure 11 be granted;
(2) Plaintiff be sanctioned $20,000, payable to the Clerk of Court; and (3) this action be stayed
until Plaintiff pays the sanction, and that, if Plaintiff fails to pay the sanction within one year, the
action be dismissed with prejudice. For the reasons stated below, the Report is adopted in part
and rejected in part.

I.

BACKGROUND
The facts and procedural history relevant to the motions are set out in the Report and

summarized here.
A.

Relevant Factual and Procedural History

Plaintiff Amy Gurvey brought this action against her attorneys, Defendant Cowan
Liebowitz & Latman, P.C. (“Cowan”), several partners of, and one associate employed by,
Cowan (together with Cowan, the “Cowan Defendants”) and various other defendants, alleging
claims for, inter alia, misappropriation of trade secrets, unfair competition, breach of fiduciary

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 2 of 14

duty, attorney malpractice and violations of the Lanham Act. In April 2009, the Third Amended
Complaint was dismissed. In February 2012, the Second Circuit affirmed the dismissal of most
of Plaintiff s claims, but found that the Third Amended Complaint stated plausible claims for
attorney malpractice and breach of fiduciary duty against the Cowan Defendants and remanded
the case for further proceedings. Gurvey v. Cowan, Liebowitz & Latman, P.C., 462 F. App’x 26,
30 (2d Cir. 2012). The mandate issued on March 12, 2012.
Plaintiff is a lawyer suspended from the practice of law in the State of New York. In the
three-and-a-half years since the Second Circuit mandate, Plaintiff has acted pro se except for a
five-month period from April 7, 2015, to September 14, 2015. During those years, she has done
little to bring her claims to resolution. Plaintiff has failed to comply with discovery orders, has
resisted the taking of her own deposition and has filed a multitude of meritless motions and
applications.
For instance, by Order dated July 15, 2013, Judge Pitman found that Plaintiff had
violated: (1) an Order dated October 10, 2012, by seeking discovery that far exceeded the scope
of her malpractice and breach of fiduciary claims; and (2) an Order dated January 14, 2013, by
failing to provide Judge Pitman with written explanations of how each of her discovery requests
served on Defendants were relevant to her two claims for attorney malpractice and breach of
fiduciary duty by the court-order deadline of January 17, 2013. The July 15, 2013, Order denied
Plaintiffs request for an extension of time, stating that Plaintiffs excuse that she was
hospitalized for a couple months for health reasons were baseless as she continued to make
numerous filings during that period.
Rather than pursuing her claims, Plaintiff has made the following applications, among
others: (1) permission to file a proposed fourth amended complaint, fifth amended complaint and
2

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 3 of 14

sixth amended complaint; (2) disqualification of Defendants’ counsel; (3) an extension of time to
effect service even though Plaintiff commenced the action in 2006; (4) reconsideration of orders
and opinions; (5) remand to state court; (6) purported interlocutory review of Judge Pitman’s
decisions directly by the Second Circuit; (7) sanctions against Defendants; and (8) judicial
recusal.
As a result, the docket sheet has grown by over 200 entries since this case was remanded
by the Second Circuit over three years ago. Despite the size of the docket sheet, and a fact
discovery deadline of September 19, 2014, this case has not proceeded to the summary judgment
stage or trial.
B.

The Report and Subsequent Events

Defendants have moved for Rule 11 sanctions against Plaintiff, asserting that she filed
(1) a frivolous motion for reconsideration of an order imposing Rule 37 sanctions on Plaintiff for
failure to comply with her discovery obligations and two court orders; (2) a frivolous motion to
file a proposed sixth amended complaint; and (3) a frivolous motion for disqualification of Judge
Pitman. The Report found that each of these three submissions by Plaintiff violated Rule 11.
The Report recommended sanctions of $20,000 payable to the Clerk of Court, a stay pending
payment and dismissal of this case if the sanction was not paid within one year. The Report
reasoned that such sanctions were appropriate because, inter alia, Plaintiffs conduct was willful;
Plaintiff had engaged in a pattern of frivolous motion practice both in this case and in other
unrelated cases; and sanctions of $8,783 and $5,700 imposed in unrelated proceedings had not
dissuaded Plaintiff from continuing to engage in sanctionable conduct.
On August 7, 2015, Plaintiff — briefly represented by counsel — timely filed objections to
the Report (the “Objections”). The Objections do not specifically address why the three
3

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 4 of 14

submissions do not violate Rule 11. Rather, the Objections assert that the procedural history of
this case shows that Plaintiffs conduct has not been frivolous and was not intended to harm,
harass or delay the proceedings.
On August 20, 2015, Defendants timely filed responses to the Objections (the
“Responses”), stating the Objections should not be sustained and that the Report should be
affirmed.
Proceeding pro se, on August 24, 2015, Plaintiff filed an interlocutory appeal with the
Second Circuit challenging, among other things, two of the matters at issue on this sanctions
motion — Judge Pitman’s decision denying Plaintiffs motion for recusal and her motion for leave
to file a proposed sixth amended complaint. i
II.

LEGAL STANDARD
A.

Standard of Review

A reviewing court “may accept, reject, or modify, in whole or in part, the findings or
recommendations made by the magistrate judge.” 28 U.S.C. § 636(b)(1)(C). Typically, the
district court “may adopt those portions of the report to which no ‘specific, written objection’ is
made, as long as the factual and legal bases supporting the findings and conclusions set forth in
those sections are not clearly erroneous or contrary to law.” Adams v. N. Y. State Dep’t of Educ.,
855 F. Supp. 2d 205, 206 (S.D.N.Y. 2012) (citing Fed. R. Civ. P. 72(b), Thomas v. Am, 474 U.S.
140, 149 (1985)). But in the context of Rule 11, the Second Circuit has left open whether de
novo review is required for a magistrate judge’s recommendation of sanctions under Rule 11.

i

Where, as here, a party files a frivolous interlocutory appeal, a district court is not
divested of jurisdiction. See United States v. Rodgers, 101 F.3d 247, 251-52 (2d Cir. 1996) (“We
fail to see any efficiency in allowing a party to halt district court proceedings arbitrarily by filing
a plainly unauthorized notice of appeal which confers on [the appeals court] the power to do
nothing but dismiss the appeal.”).
'
4

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 5 of 14

Kiobel v. Millson, 592 F.3d 78, 79-80 (2d Cir. 2010) (declining to decide “whether the District
Judge applied the correct standard of review to the Magistrate Judge’s determination that Rule 11
sanctions were warranted”). In an exercise of caution, the review below is de novo.
B.

Rule 11 Standard

Rule 11 states that an attorney or pro se party who presents “a pleading, written motion, or
other paper” to a court thereby “certifies” that to “the best of the person’s knowledge,
information, and belief,” formed after a reasonable inquiry, the filing is: (1) not presented for any
improper purpose, such as to “harass, cause unnecessary delay, or needlessly increase the cost of
litigation”; (2) “warranted by existing law or by a nonfrivolous argument for extending,
modifying, or reversing existing law or for establishing new law”; and (3) supported in facts
known or likely to be discovered on further investigation. Fed. R. Civ. P. 11(b). “[A] court may
impose an appropriate sanction on ... a party that violated [Rule 11(b)] or is responsible for the
violation.” Fed. R. Civ. P. 11(c).
“[T]he main purpose of Rule 11 is to deter improper behavior, not to compensate the
victims of it or punish the offender.” Universitas Educ., LLC v. Nova Grp., Inc., 784 F.3d 99,
103 (2d Cir. 2015) (quoting 5A Charles Alan Wright et al., Federal Practice and Procedure §
1336.3 (3d ed. 2004)). For sanctions issued pursuant to a motion by opposing counsel, courts
have held that an attorney or litigant “could be sanctioned for conduct that was objectively
unreasonable.” Muhammad v. Walmart Stores East, L.P., 732 F.3d 104, 108 (2d Cir. 2013).
“[District courts are given ‘broad discretion’ in creating Rule 11 sanctions,” so long as the
sanctions “fit within the confines of the rule.” Universitas Educ., 784 F.3d at 103 (quoting
O’Malley v. N.Y.C. Transit Auth., 896 F.2d 704, 709 (2d Cir. 1990)).

5

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 6 of 14

III.

DISCUSSION
Upon a de novo review of the record in this litigation, including the pleadings, the docket

sheet, the parties’ respective submissions filed in connection with the motions described in the
Report, applicable legal authorities, the Report, the Objections and the Responses, the Court
adopts the Report’s findings, reasoning and legal support for concluding that Plaintiff violated
Rule 11. The Report’s recommendations about the sanctions to be imposed are modified as
discussed below.
A.

Plaintiff Violated Rule 11

The Report correctly found that the following frivolous filings violated Rule 11:
(1) Plaintiffs motion for reconsideration dated March 24, 2014 (the “Motion for
Reconsideration”); (2) Plaintiffs motion for leave to file a proposed sixth amended complaint
(“Motion to Amend”); and (3) Plaintiffs motion to disqualify Judge Pitman (the
“Disqualification Motion”).
1.

Plaintiffs Motion for Reconsideration

The Motion for Reconsideration violated Rule 11 as it lacked any factual or legal basis.
“Rule 11 permits sanctions against a litigant who submits a pleading or motion that, evaluated
‘under an objective standard of reasonableness,. . . [has] no chance of success and [makes] no
reasonable argument to extend, modify or reverse the law as it stands.’” Smith v. Westchester
Cnty. Dep’tof Corr., 577 F. App’x 17, 18 (2d Cir. 2014) (quoting Caisse Nationale de Credit
Agricole-CNCA, N.Y. Branch v. Valcorp, Inc., 28 F.3d 259, 264 (2d Cir. 1994)) (affirming
imposition of Rule 11 sanction for a frivolous motion for reconsideration); accord Maisonville v.
F2 America, Inc., 902 F.2d 746, 748-49 (9th Cir. 1990) (affirming imposition of Rule 11
sanctions for frivolous motion for reconsideration); Miller v. Norfolk S. Ry. Co., 208 F. Supp. 2d
6

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 7 of 14

851, 853-54 (N.D. Ohio 2002) (imposing Rule 11 sanctions for frivolous motion for
reconsideration that “presented no basis on which it could, or should[,] have been granted”);
Atkins v. Marathon LeTourneau Co., 130 F.R.D. 625, 626-27 (S.D. Miss. 1990) (imposing Rule
11 sanction for frivolous motion for reconsideration that merely repeated arguments made in
original motion). Applying an objective standard, a reasonable person in Plaintiffs
circumstances would have known that the motion was baseless.
The Motion for Reconsideration lacked any chance of success. The motion asserted that
Judge Pitman did not consider the evidence before him and found facts not supported by the
evidence. In support, however, it relied on numerous factual misrepresentations, including that:
(1) Judge Pitman admitted at a conference that he “only considered [Defendants’] papers but did
not consider all [of] Plaintiffs relevant papers” in connection with a motion for sanctions, which
is contradicted by the extensive discussion of Plaintiff s submissions in the relevant order; and
(2) Defendants had been permitted to “reframe sanction arguments already rejected . . . [by] the
Second Circuit,” when the Second Circuit’s decision did not discuss sanctions and the conduct
being sanctioned occurred after the Second Circuit’s decision. The motion also relied on
numerous alleged instances of misconduct by defense counsel that were unrelated to the relief
requested — reconsideration of an order imposing Rule 37 sanctions on Plaintiff for failing to
comply with court orders or with her discovery obligations. Accordingly, the Motion for
Reconsideration violated Rule 11 as the legal arguments were frivolous, and the factual
contentions were unsupported by any evidence.
Bringing the Motion for Reconsideration was objectively unreasonable because Plaintiff
knew the standard for a motion for reconsideration. First, in April 2013, Plaintiff had been
sanctioned for filing “repeated, unsupported requests for reconsideration” in an unrelated case.
7

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 8 of 14

Gurvey v. Legend Films, Inc., No. 09 Civ. 942, 2013 WL 1883229, at *1 (S.D. Cal. May 3,
2013). Second, on August 1, 2013, Plaintiff — acting pro se — filed a motion for reconsideration
that included the legal standard for such a motion. Finally, about one month before Plaintiff
brought the Motion for Reconsideration, Judge Pitman’s February 25, 2014, Order again stated
the relevant legal standard in denying Plaintiffs motion for reconsideration not at issue here. The
February 25, 2014, Order also warned Plaintiff that further noncompliance with the Federal Rules
of Civil Procedure could result in sanctions, including dismissal of the action. By failing to heed
Judge Pitman’s warning and filing the frivolous Motion for Reconsideration, Plaintiff violated
Rule 11.
2.

Plaintiffs Motion to Amend

Plaintiffs Motion to Amend also violated Rule 11 because the proposed sixth amended
complaint was duplicative of her proposed fifth amended complaint. Rule 11 sanctions may be
imposed when a proposed amended complaint “not only failed to correct legal deficiencies in
plaintiffs’ earlier amended complaints, but reasserted, without sufficient new factual allegations,
numerous claims that [had been] dismissed, and asserted certain other claims without any
substantive legal basis.” Adams v. N.Y. State Dep’t of Educ., 855 F. Supp. 2d 205, 206 (S.D.N.Y.
2012) (imposing Rule 11 sanctions for proposed complaint that “merely retreaded claims
previously dismissed”), aff’dsub nom. Hochstadtv. N.Y. State Educ. Dep’t, 547 F. App’x 9 (2d
Cir. 2013).
By Decision and Order dated July 15, 2013, Judge Pitman denied Plaintiffs motion to file
the proposed fifth amended complaint based on futility, failure to state a claim, undue delay and
prejudice to defendants. That order provided a detailed recitation of the relevant pleading
standards and discussed the substantive law. Judge Pitman then denied Plaintiffs motion to
8

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 9 of 14

reconsider that order. Plaintiff subsequently sought leave to file a proposed sixth amended
complaint, asserting that it made new allegations based on facts disclosed by Defendants in their
document production after the proposed fifth amended complaint had been rejected. But, as
detailed in the Report and in Judge Pitman’s Opinion and Order dated July 21, 2015, denying
leave to file a sixth amended complaint, there is no material difference between the two proposed
complaints.
Among other things, both proposed complaints allege: (1) Defendants failed to act
competently in prosecuting Plaintiffs patent applications, causing her damages; (2) Defendants
disclosed Plaintiffs confidential information to its clients; and (3) Defendants breached its
obligations to Plaintiff by providing services to Legends Film to Plaintiffs detriment. The
proposed sixth amended complaint was merely a restated and reorganized iteration of the
proposed fifth amended complaint. Accordingly, the motion to file yet another amended
complaint violated Rule 11.
3.

Plaintiffs Disqualification Motion

The Disqualification Motion also violated Rule 11 because it contained numerous factual
misrepresentations. As discussed in the Report and in Judge Pitman’s Opinion and Order dated
July 21, 2015, denying the Disqualification Motion, this motion incorrectly asserted, inter alia.
that: (1) Judge Pitman denied Plaintiff discovery by failing to schedule a discovery conference
until March 19, 2014, but conferences were held on October 9, 2012, and January 3, 2013, and, in
any event, Judge Pitman decided various discovery motions on the papers; (2) Judge Pitman
improperly considered information from outside this case; (3) Defendants’ counsel supervised
attorneys on the Departmental Disciplinary Committee in 2007 to obtain an unfair advantage in

9

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 10 of 14

this litigation; and (4) Defendants’ counsel submitted “altered” evidence and “tamper[ed] with
files in the public room.” These frivolous allegations violate Rule 11.

4.

The Objections

In arguing for a contrary result, the Objections make three arguments. First, the
Objections assert that Plaintiff acted in good faith. Specifically, the Objections argue that
Plaintiff “was ‘over her head’ in attempting to litigate this case herself’ and had filed numerous
motions in an effort to obtain discovery and move this case to a decision on the merits. This
argument is unpersuasive. Rule 11 applies to pro se litigants. Fed. R. Civ. P. 11 (b)-(c) (“[T]he
court may impose an appropriate sanction on any attorney, law firm, or party that violated [Rule
11(b)] . . . .”) (emphasis added); see also Patterson v. Aiken, 841 F.2d 386, 387 (11 Cir. 1988)
(per curiam) (“[0]ne acting pro se has no license to harass others, clog the judicial machinery
with meritless litigation, and abuse already overloaded court dockets.” (quoting Farguson v.
MBank Houston, N.A., 808 F.2d 358, 359 (5th Cir. 1986)).
Moreover, “[Plaintiff] is a lawyer and, therefore, [s]he cannot claim the special
consideration which the courts customarily grant to pro se parties.” Harbulak v. Suffolk Cnty.,
654 F.2d 194, 198 (2d Cir. 1981); accord Fox v. Boucher, 794 F.2d 34, 38 (2d Cir. 1986) (“When
the litigant is an attorney sanctions are particularly appropriate.”). Finally, Plaintiff had been
warned that further noncompliance with the Federal Rules of Civil Procedure would result in
sanctions, but failed to heed this warning. Accordingly, this argument fails.
Second, the Objections assert that this Court’s March 19, 2013, Order divested Judge
Pitman of any further jurisdiction. This is incorrect. This case was reassigned from the
Honorable Barbara S. Jones, upon her retirement, to this Court on March 11, 2013, in effect
advising that a new judge would be replacing Judge Jones on the case. The March 19, 2013,
10

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 11 of 14
Order did not withdraw the referral to Judge Pitman for general pretrial supervision, and Judge
Pitman has continued to supervise general pretrial matters since that Order was entered over two
years ago. Accordingly, this argument is meritless.
Finally, the Objections allege that “Judge Pitman may not have the power to decide a
motion to amend the complaint due to its dispositive nature.” This is incorrect. The Second
Circuit has considered and rejected a similar argument, finding that a “magistrate judge acted
within his authority in denying [a] motion to amend the complaint.” Marsh v. Sheriffof Cayuga
Cnty., 36 F. App’x 10, 1 (2d Cir. 2002) (citing 28 U.S.C. § 636(b)(1)(A)). Accordingly, this
argument fails and the Report’s finding that Plaintiffs Disqualification Motion violated Rule 11
is adopted.
B.

Nature of Sanctions Imposed

“Once a court determines that Rule 11(b) has been violated, it may . . . impose sanctions
limited to what is ‘sufficient to deter repetition of such conduct.’” Margo v. Weiss, 213 F.3d 55,
64 (2d Cir. 2000) (quoting Fed. R. Civ. P. 11(c). “District courts are given broad discretion in
tailoring appropriate and reasonable sanctions.” O’Malley, 896 F.2d at 709; accord 5A Charles
Alan Wright et al., Federal Practice and Procedures § 1336.3 (3d ed.) (“[Fjederal courts retain
broad discretionary power to fashion novel and unique sanctions to fit the particular case.”).
“[Dismissal remains available directly under Rule 11 although it is reserved for the rare case
involving extreme misbehavior by the offending party, such as fraud, contempt, and willful bad
faith.” Id.
The Report recommended — and this Court agrees — that significant monetary and non­
monetary sanctions should be imposed because, inter alia, (1) Plaintiffs conduct has been willful;
(2) prior sanctions of $5,700 and $8,783 in unrelated actions had not dissuaded Plaintiff from
11

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 12 of 14

engaging in frivolous motion practice; and (3) Plaintiffs actions in this litigation have
unnecessarily delayed resolution of this case.
The Report’s recommendation of a $20,000 sanction, however, is reduced to $10,000 to
pay for a special master, as detailed below. The amount of $10,000 is reasonable and likely
sufficient to pay a special master as discovery has closed and all that remains are dispositive
motions, if any, followed by a potential trial. Review by the special master at Plaintiffs expense
is necessary to deter Plaintiff from repeating the sanctionable conduct as Plaintiff has continued
to file meritless applications and motions notwithstanding the close of discovery approximately
one year ago. See Fed. R. Civ. P. 11(c)(4) (“A sanction imposed under this rule must be limited
to what suffices to deter repetition of the conduct or comparable conduct by others similarly
situated.”). To the extent that Plaintiff continues to make court submissions as she has in the
past, review by a special master appears necessary to address pretrial matters that cannot be
effectively and timely addressed by an available district judge or magistrate judge. See Fed. R.
Civ. P. 53(a). Barring Plaintiff from filing further papers in this case, except as specified below,
is necessary to deter repetition of Rule 11 violations, prevent further delay and bring this nineyear-old case to a resolution on the merits. Accordingly, the Report’s recommendation is
modified, and the following sanctions are imposed on Plaintiff:
(1)

This case is stayed, unless and until $10,000 is deposited with the Clerk of Court.

(2)

Plaintiff may deposit $10,000 with the Clerk of Court, and the Clerk of Court shall
maintain the funds in an interest bearing account until further order of the Court.

(3)

The funds shall be used to pay a special master appointed by the Court to
(a) familiarize himself or herself with this case and (b) review Plaintiffs proposed
filings to determine whether they are frivolous or otherwise patently improper.
12

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 13 of 14

(4)

Plaintiff will receive the balance of the funds she deposited, if any, after this case
is closed and all appeals have been exhausted.

(5)

Plaintiff will be required to deposit additional funds on terms to be specified, if the
original $10,000 is exhausted before the conclusion of the case.

(6)

If the initial $10,000 deposit is not made within one year of the date of this
Opinion and Order, then the case will be dismissed.

(7)

Plaintiff shall submit all proposed filings to the special master and obtain a written
statement from the special master as to whether the proposed filing is frivolous or
otherwise patently improper (“Approval for Filing”).

(8)

Plaintiffs ECF filing privileges are revoked and she must make all filings through
the Pro Se Office.

(9)

Plaintiff may submit a proposed submission to the Pro Se Office for filing only if
the submission is accompanied by an Approval for Filing.

(10)

The Pro Se Office shall reject any proposed submission by or on behalf of Plaintiff
that is not accompanied by an Approval for Filing. The Pro Se Office shall file on
ECF any proposed submission by or on behalf of Plaintiff that is accompanied by
an Approval for Filing.

IV.

CONCLUSION
For the foregoing reasons, the Report’s recommendation that Plaintiff be sanctioned by

requiring her to pay $20,000 to the Clerk of Court is REJECTED, and the sanctions outlined in

13

Case l:06-cv-01202-LGS-HBP Document 338 Filed 09/17/15 Page 14 of 14
numbered paragraphs 1 through 10 above are imposed. The remainder of the Report is
ADOPTED.
The Clerk of Court is respectfully directed to close Docket Numbers 223, 224 and 294.
SO ORDERED.
Dated: September 17, 2015
New York, New York
LortuG. Schofield
United States District Judge

14

